U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lonnie Alonzo Howard v. United States of America,
S.Ct. No. 20-8786

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 29,
2021, and placed on the docket on April 7, 2021. The government’s response is due on May 7,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7686
HOWARD, LONNIE ALONZO
USA

MARK A. MEYER
MEYER LAW FIRM
205 7TH STREET N.
PO BOX 216
WAHPETON, ND 58075

